               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Nationwide Analysis of Tier 1
             Network Distribution
           Centers – Postal Vehicle
              Service Operations

                       Audit Report




                                         September 27, 2013

Report Number NO-AR-13-008
                                                                    September 27, 2013

                                                Nationwide Analysis of Tier 1 Network
                                                 Distribution Centers – Postal Vehicle
                                                                   Service Operations

                                                         Report Number NO-AR-13-008



BACKGROUND:
U.S. Postal Service network                   drivers averaged 27 moves a day,
transportation using Postal Service           significantly below the 40 moves per
vehicles and employees is called Postal       driver per day standard. This occurred
Vehicle Service (PVS). PVS operations         because local managers at four Tier 1
at Network Distribution Centers (NDCs)        NDCs were not conducting annual PVS
include yard operations where drivers         schedule and vehicle utilization reviews.
use specific trucks to move trailers and      In this audit, we found PVS drivers
equipment in or around a facility yard        averaged 28 moves at six of seven Tier 1
(spotting). Headquarters provides             facilities. Strengthening nationwide
nationwide oversight of PVS operations        compliance and oversight would ensure
and area vice presidents are                  that managers efficiently match
responsible for the local implementation      workhours with workload. We estimate
of efficient PVS operations, including        this would save the Postal Service about
ensuring required annual vehicle              $1.5 million in PVS transportation costs
utilization reviews are performed and         annually. We also found in our previous
enforcing established yard move               audits that drivers were not consistently
productivity standards.                       wearing safety belts when conducting
                                              PVS operations.
Our objective was to identify issues
requiring nationwide attention based on       WHAT THE OIG RECOMMENDED:
the results of our prior work, which          We recommended the vice president,
identified PVS staffing and safety            Network Operations, require the six
inefficiencies at four Tier 1 NDCs. Tier 1    Tier 1 NDCs identified in this report to
NDCs process destinating bulk mail and        conduct an assessment of driver
originating turn-around bulk mail for their   workload and staffing and make
service area. They also send and              appropriate adjustments to workhours
receive mail from Tier 2 NDCs, which          based on compliance with yard move
serve as consolidation and transfer           productivity standards. In addition, the
points. There are 11 Tier 1 NDCs              Postal Service should ensure these
nationwide.                                   Tier 1 NDCs annually assess PVS driver
                                              workload and staffing requirements.
WHAT THE OIG FOUND:                           Finally, we recommended the Postal
Postal Service Headquarters needs to          Service ensure that NDC managers
enforce nationwide compliance and             enforce using seat belts and monitor
oversight of PVS trailer move standards       compliance.
to improve efficiency at Tier 1 NDCs. In      Link to review the entire report
our previous audits, we found PVS
September 27, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Nationwide Analysis of Tier 1 Network
                           Distribution Centers – Postal Vehicle Service Operations
                           (Report Number NO-AR-13-008)

This report presents the results of our audit of the Nationwide Analysis of Tier 1 Network
Distribution Centers – Postal Vehicle Service Operations (Project Number
13WG009NO001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Nationwide Analysis of Tier 1 Network Distribution                                                                 NO-AR-13-008
 Centers – Postal Vehicle Service Operations



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Enforcing Trailer Move Standards to Improve Efficiency ................................................. 2

Safety Concerns .............................................................................................................. 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Summary of Findings at Four Tier 1 Network Distribution Centers
Previously Audited......................................................................................................... 13

Appendix C: Monetary Impacts ..................................................................................... 14

Appendix D: Management's Comments ........................................................................ 15
Nationwide Analysis of Tier 1 Network Distribution                                                      NO-AR-13-008
 Centers – Postal Vehicle Service Operations



Introduction

This report presents the results of our self-initiated audit of the Nationwide Analysis of
Tier 1 Network Distribution Centers (NDCs) — Postal Vehicle Service (PVS) Operations
(Project Number 13WG009NO001). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit based on the results of our prior audits that focused on PVS
operations at four NDCs. 1 The objective was to identify issues requiring nationwide
attention based on the results of our prior work (see the Prior Audit Coverage section of
this report), which identified PVS staffing and safety inefficiencies at four Tier 1 NDCs.
Tier 1 NDCs process destinating bulk mail and originating turn-around bulk mail for their
service areas and send and receive mail from Tier 2 NDCs, which serve as
consolidation and transfer points. There are 11 Tier 1 NDCs nationwide. See
Appendix A for additional information about this audit.

U.S. Postal Service network transportation using Postal Service vehicles and
employees is called PVS. Because PVS operations are local, they are managed at the
facility level under guidance from district, area, and headquarters transportation officials.
PVS activities at NDCs include yard operations, which is the movement of trailers and
equipment in or around a facility yard (spotting), typically to and from the facility dock
doors. This movement of trailers is performed by PVS drivers using spotter trucks2 (see
Figure 1).

                           Figure 1. Spotter Truck at Washington, DC NDC




                                     Source: OIG photograph taken August 16, 2012.




1
    The four facilities we visited were the Atlanta, St. Louis, Washington, DC, and Springfield NDCs.
2
    Spotters are heavy duty trucks used to move trailers within an NDC yard operation.
                                                                1
Nationwide Analysis of Tier 1 Network Distribution                                                         NO-AR-13-008
 Centers – Postal Vehicle Service Operations


Postal Service Headquarters provides oversight of PVS operations nationwide and area
vice presidents are responsible for the local implementation of efficient PVS operations,
including conducting annual vehicle utilization reviews and enforcing established yard
move productivity standards. The standards specify that drivers (tractor-trailer
operators) complete 40 trailer moves in an 8-hour period.

Conclusion

Postal Service Headquarters management needs to enforce nationwide compliance
and oversight of PVS trailer move standards at Tier 1 NDCs. In our previous audits, we
found that PVS drivers averaged 27 moves a day, which is significantly below the
40 moves per driver per day standard. This occurred because local managers at four
Tier 1 NDCs were not conducting annual PVS schedule and vehicle utilization reviews.
In this review, we likewise found PVS drivers averaging 28 moves at six of the seven
Tier 1 NDCs. Taking nationwide action to strengthen compliance and oversight would
ensure managers more efficiently staff operations, match workhours with workload, and
reduce driver workhours. By making these changes nationally, we estimate the Postal
Service could save about $1,498,530 annually in PVS transportation costs. We also
found in our previous reviews that drivers were not consistently following prescribed
safety procedures by wearing safety belts when conducting PVS operations.

Enforcing Trailer Move Standards to Improve Efficiency

According to Postal Service requirements, 3 Postal Service officials are required to
conduct PVS schedule and vehicle utilization surveys (reviews) at least annually.
Surveys are completed to determine that:

   The full-service requirement is met with the minimum number of postal-owned and
    leased vehicles or other contractual services.

   Required service is provided with the fewest possible number of vehicle hours used
    and miles operated.

   All vehicle usage is integrated to the maximum extent ensuring optimization and
    avoiding duplication and overlapping of service.

We found NDC management could make operations more efficient by holding PVS
drivers to a standard of 40 moves 4 per workday for each driver according to established
productivity standards. NDC PVS yard move operation productivity standards were
recognized in 2005 in the Postal Service’s Breakthrough Productivity Initiative. 5 This
equates to one driver accomplishing 200 trailer moves in an NDC yard during a 40-hour


3
  Handbook PO-701 Fleet Management, March 1991.
4
  A move consists of moving trailers and equipment from one location to another in the NDC yard.
5
  The breakthrough productivity initiative was initiated to drive costs out of the Postal Service while creating
continuous improvement capability.
                                                              2
  Nationwide Analysis of Tier 1 Network Distribution                                                  NO-AR-13-008
   Centers – Postal Vehicle Service Operations


  work week. The standards specify that drivers (tractor-trailer operators) are expected to
  complete 40 trailer moves in an 8-hour period. 6

  As part of our prior audits, we reviewed 197,315 trailer moves at the four facilities
  reviewed. At all four NDCs, PVS drivers averaged less than 40 trailer moves per
  workday (see Table 1). We conducted observations and analyzed operational workload
  data 7 and confirmed that the established productivity standard of 40 moves per day was
  reasonable and attainable for PVS drivers at all facilities reviewed. We found
  productivity standards were not met because NDC managers did not fully assess
  workload and staffing requirements. See Appendix B for additional details of our prior
  findings on yard move standards at the previously audited NDCs.

                             Table 1. Average Moves Per Driver Per Day


                                                                                Average             Average
                                                                               Move Per            Move Per
                                    Average                                    Driver Per          Driver Per
           Facility               Weekly Moves               Drivers             Week                 Day
 Atlanta NDC                                   1,805                    11                164                   33

 Springfield NDC                               3,743                    28                134                   27

 St. Louis NDC                                 1,657                    15                110                   22

 Washington, DC NDC                            1,611                    12                134                   27
Source: OIG analysis.

  Based on our findings at the four NDCs, we performed a data analysis of the remaining
  Tier 1 NDCs, regarding the number of trailer moves per driver per 8-hour day. We found
  that the remaining facilities, except for the Minneapolis/St. Paul NDC, 8 also have
  opportunities to improve trailer move efficiency (see Table 2).




  6
    Headquarters and senior area transportation managers have explained that this productivity standard was
  reasonable and appropriate.
  7
    Our analysis also included PVS driver workload associated with the Surface Transfer Center (STC), which is
  located within the NDC facility and is supported by the drivers.
  8
    While the data shows that the Minneapolis/St. Paul NDC far exceeds the 40 yard moves per driver per day, further
  assessment may be necessary to validate the data given the high number of moves per hour identified and to identify
  any best practices that might be employed at the facility to improve yard moves at other facilities.
                                                              3
Nationwide Analysis of Tier 1 Network Distribution                               NO-AR-13-008
 Centers – Postal Vehicle Service Operations


                         Table 2. Average Moves Per Driver Per Day


                                                                    Average      Average
                                                                   Move Per     Move Per
                                      Average                      Driver Per   Driver Per
             Facility               Weekly Moves         Drivers     Week          Day

 Chicago NDC                                     4,408        45           98           20

 Cincinnati NDC                                  1,719        15          115           23

 Detroit NDC                                     1,383        11          126           25

 Kansas City NDC                                 1,737         9          193           39

 Minneapolis/St. Paul NDC                        3,105        10          311           62

 Philadelphia NDC                                2,508        17          148           30

 San Francisco NDC                               2,266        16          142           29
Source: OIG analysis.

Safety Concerns

We also found that Postal Service Headquarters management needs to ensure local
oversight and compliance with safety policies for PVS drivers. During our fieldwork, we
observed some PVS drivers at three of the four facilities visited not wearing safety belts
while driving in the NDC yard, as required. Postal Service policy states “drivers must
wear safety belts whenever the vehicle is in motion.” We determined this occurred
because management was not always enforcing the required safety policy. Therefore,
management needs to consistently reinforce Postal Service policy on safety belt use.

Recommendations

We recommend the vice president, Network Operations:

1. Require the six Tier 1 Network Distribution Centers identified in the report conduct
   an assessment of driver workload and staffing and make appropriate adjustments to
   workhours based on compliance with yard move productivity standards.

2. Ensure Tier 1 Network Distribution Centers annually assess Postal Vehicle Service
   driver workload and staffing requirements.

3. Reemphasize the safety policy that Postal Vehicle Service drivers must wear safety
   belts whenever their vehicles are in motion and provide oversight for enforcement.

                                                     4
Nationwide Analysis of Tier 1 Network Distribution                           NO-AR-13-008
 Centers – Postal Vehicle Service Operations


Management’s Comments

Management agreed with the findings, recommendations, and monetary impact. In
response to recommendation 1, the six Tier 1 NDCs are required to assess their PVS
spotter driver workload after they complete the Zero Base review in October 2014. The
target completion date for this recommendation is January 1, 2015.

In response to recommendation 2, and as mentioned in response to recommendation 1,
after the Zero Base reviews are complete, driver workload will be analyzed and adjusted
as necessary to meet the productivity minimum of 40 moves per 8 hours. The target
completion date for this recommendation is January 1, 2015.

In response to recommendation 3, management will issue a letter to the field
emphasizing the proper use of seat belts, chock blocks, and load restraints. The target
completion date for this recommendation is September 30, 2013.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                     5
Nationwide Analysis of Tier 1 Network Distribution                                                  NO-AR-13-008
 Centers – Postal Vehicle Service Operations



                                Appendix A: Additional Information

Background

PVS Operations. Postal Service network transportation that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or Processing and
Distribution Centers in or near metropolitan areas. PVS operations typically include yard
operations in which PVS drivers use spotter trucks (see Figure 1) to move or ‘spot’
trailers and equipment in or around a facility yard, typically a NDC yard. Postal Service
Headquarters provides oversight of PVS operations nationwide. Area vice presidents
are responsible for local implementation of this guidance and local monitoring of
compliance with policies governing PVS operations, including conducting annual vehicle
utilization reviews and enforcing established yard move productivity standards.

PVS is capital- and personnel-intensive. Nationwide, PVS capital assets include about
1,931 cargo vans, 2,143 tractors (including spotter tractors), and 3,705 trailers. The
Postal Service has about 5,795 PVS drivers. The American Postal Workers Union
represents PVS drivers and support personnel.

NDC Network. In 2009, the Postal Service reorganized its 21 Bulk Mail Centers 9 into
NDCs. NDCs are part of a national system of automated mail processing facilities linked
by a dedicated transportation network. NDCs were designed to consolidate mail
processing and dispatch to increase operational efficiency and reduce workhours and
transportation costs. Only four of the 11 Tier 1 sites have seen a reduction in
workhours. See Table 3 for fiscal year fiscal year (FY) 2012 PVS driver hours.

                           Table 3. Tier 1 NDC Sites PVS Driver Hours

                                                                      Total
                                               Total Actual          Planned
                                               PVS Driver           PVS Driver
                                                Hours in             Hours in
                     Facility                    FY 2012             FY 2012          Difference
             Atlanta NDC*                            25,035             22,399              2,636
             Chicago NDC                             51,298             46,785              4,513
             Cincinnati NDC                          26,083             29,754             -3,671
             Detroit NDC                             20,134             19,372                762
             Kansas City NDC                         16,296             15,840                456
             Philadelphia NDC                        36,521             38,440             -1,919

9
  This dedicated network was developed to reduce delays and damage when handling Bulk Mail within a system
designed primarily for letter mail and has to compete with First-Class Mail (FCM) and other classes of mail for
processing time and transportation space. The term ‘bulk mail’ includes Package Services, Periodicals, and Standard
Mail classes with service standards from 1 to 10 days. Some NDCs have incorporated STC operations that handle
significant volumes of FCM and Priority Mail.
                                                           6
Nationwide Analysis of Tier 1 Network Distribution                                NO-AR-13-008
 Centers – Postal Vehicle Service Operations


                                                             Total
                                            Total Actual    Planned
                                            PVS Driver     PVS Driver
                                             Hours in       Hours in
                     Facility                 FY 2012       FY 2012     Difference
             San Francisco NDC                    30,249       33,872        -3,623
             Springfield NDC*                     87,294       76,110       11,184
             St. Louis NDC*                       26,849       25,986           863
             Washington, DC NDC*                  20,296       24,857        -3,931
           Source: OIG analysis.
           *Facilities we reviewed.

NDCs are categorized as Tier 1, Tier 2, or Tier 3, depending on what operations their
employees perform. All 21 NDCs perform at least the Tier 1 functions. Tier 2 and 3
NDCs act as transfer and consolidation points for other NDCs as well. There are 11
Tier 1 NDC facilities. The Tier 1 facilities have a greater opportunity for efficiencies
because of their limited processing and transportation functions. See Figure 2 to see
where the NDC facilities are located.




                                                     7
Nationwide Analysis of Tier 1 Network Distribution                                                         NO-AR-13-008
 Centers – Postal Vehicle Service Operations



                                     Figure 2. NDC Facility Locations




       Source: Postal Service Blue Pages – Network Operations.

PVS Yard Move Productivity Standards. NDC PVS yard move operation productivity
standards were established and recognized in 2005 in the Postal Service’s
Breakthrough Productivity Initiative. 10 The standards specify that drivers (tractor-trailer
operators) are expected to complete 40 trailer moves in an 8-hour period. This equates
to one driver accomplishing 200 trailer moves within a NDC yard during a 40-hour work
week. 11

Objective, Scope, and Methodology

We conducted this nationwide performance audit based on prior audits that identified
inefficiencies in the scheduling of PVS operations at four Tier 1 NDCs. 12 The objectives
of our prior Tier 1 audits were to assess the unloading and loading practices at selected
NDCs and determine whether staffing of PVS transportation operations was efficient,
effective, and economical. We conducted our work at the Atlanta, St. Louis,
Washington, DC, and Springfield NDCs. We selected these facilities randomly.

The objective of this audit was to identify issues requiring nationwide attention based on
the results of our prior work which identified PVS staffing and safety inefficiencies at the

10
   The breakthrough productivity initiative was initiated to drive costs out of the Postal Service while creating
continuous improvement capability.
11
   Headquarters and senior area transportation managers have explained that this productivity standard was
reasonable and appropriate.
12
   The four facilities reviewed were the Atlanta, St. Louis, Washington, DC, and Springfield NDCs.
                                                              8
Nationwide Analysis of Tier 1 Network Distribution                           NO-AR-13-008
 Centers – Postal Vehicle Service Operations


four Tier 1 NDCs reviewed. We determined there were no nationwide, reportable issues
related to trailer loading and unloading, but identified trailer loading issues at two
facilities. Detailed observations at each facility would be necessary to assess the
requirements nationwide. Recommendations were made to address those issues
locally.

To accomplish our nationwide objective, we reviewed prior work at four Tier 1 NDCs
and identified systemic issues requiring attention. During our work, we interviewed
Postal Service officials at headquarters and reviewed relevant Postal Service policies
and procedures.

At the four NDCs previously audited, we interviewed managers and employees, and
observed and photographed operations.

                             Figure 3. Spotter Truck Moving Trailer
                                   at the St. Louis NDC Yard




                               Source: OIG photograph taken May 16, 2012.

For those facilities, we also obtained computer-generated data from the Yard
Management System (YMS) for a specific period of time for each facility showing the
PVS yard operational workload (trailer moves) for NDC operations at the facility. We
identified and examined 197,485 trailer moves for the period during which each facility
was reviewed. We examined this workload with a previously established Postal Service
productivity standard of 40 moves per day (five moves per hour) for PVS driver
operations. We assessed the reliability of YMS data by observing PVS drivers moving
trailers in each NDC yard and compared that to the YMS spotter move report.

We concluded the data were accurate and reliable. We also verified the accuracy of the
data of both YMS and Vehicle Information Transportation and Logistics through
discussions with Postal Service officials knowledgeable about the data and the system
that produced the data. We determined that the data were sufficiently reliable for the
purposes of this report.



                                                     9
Nationwide Analysis of Tier 1 Network Distribution                           NO-AR-13-008
 Centers – Postal Vehicle Service Operations


This nationwide report focuses on PVS operations at Tier 1 NDC facilities only. As part
of this nationwide review, we analyzed yard move data for the remaining Tier 1 NDCs to
determine whether opportunities existed to improve efficiency at those facilities. We did
not visit the remaining seven NDCs and could not validate the results of our analysis.

We conducted this performance audit from June through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 21, 2013, and included their
comments where appropriate.




                                                     10
Nationwide Analysis of Tier 1 Network Distribution                             NO-AR-13-008
 Centers – Postal Vehicle Service Operations



   Prior Audit Coverage



                                         Report           Final Report
           Report Title                 Number                DateMonetary Impact
    Springfield Network               NO-AR-13-006         8/26/2013  $1,570,135
    Distribution Center –
    Postal Vehicle Service
    Operations
    Report Results:
    The OIG identified 20,280 unnecessary workhours during the audit at the
    Springfield NDC and management initiated the elimination of 11,657 excess
    workhours. We recommended NDC managers periodically assess PVS
    workload and staffing requirements to maintain appropriate staffing levels. In
    addition, we recommended management reemphasize the safety policy on the
    use of safety belts while a vehicle is in motion. Management generally agreed
    with our findings and recommendations.

    Washington Network           NO-AR-13-001         3/21/2013          $4,767,190
    Distribution Center –
    Postal Vehicle Service
    Operations
    Report Results:
    The OIG identified 3,492 unnecessary workhours that management should
    eliminate and recommended NDC managers periodically assess PVS workload
    and staffing requirements to maintain appropriate staffing levels. In addition, we
    recommended management follow prescribed procedures for making highway
    contract routes efficient and verify eliminating or modifying 60 trips identified
    during our audit and emphasize and enforce that drivers wear safety belts,
    repair exterior doors’ badge readers and locks, and ensure that exterior doors
    are not left open. Management generally agreed with our findings and
    recommendations.




                                                     11
Nationwide Analysis of Tier 1 Network Distribution                            NO-AR-13-008
 Centers – Postal Vehicle Service Operations




                                         Report           Final Report
           Report Title                 Number                Date Monetary Impact
    St. Louis Network                 NL-AR-12-008         9/21/2012   $598,948
    Distribution Center –
    Postal Vehicle Service
    Operations
    Report Results:
    The OIG identified 6,984 unnecessary workhours and had an agreement with
    the St. Louis NDC to phase out the workhours. NDC managers need to
    periodically assess PVS workload and staffing requirements to maintain
    appropriate staffing levels. In addition, we recommended management
    reemphasize the safety policy on the use of safety belts while a vehicle is in
    motion. Management generally agreed with our findings and recommendations.

    Atlanta Network                   NL-AR-12-007         7/24/2012     $694,105
    Distribution Center –
    Postal Vehicle Service
    Operations
    Report Results:
    The OIG identified 8,730 unnecessary workhours. We recommended
    management eliminate 6,984 workhours and NDC managers periodically
    assess PVS workload and staffing requirements. Also, we recommended
    management eliminate an additional 1,746 workhours by following prescribed
    standard operating procedures for movement of trailers in the yard to maintain
    appropriate staffing levels. Management generally agreed with our findings and
    recommendations.




                                                     12
Nationwide Analysis of Tier 1 Network Distribution                                                     NO-AR-13-008
 Centers – Postal Vehicle Service Operations



                        Appendix B: Summary of Findings at Four Tier 1
                        Network Distribution Centers Previously Audited

Our prior audits of the Atlanta, St. Louis, Washington, DC, and Springfield NDCs found
that NDC management could make PVS driver operations more efficient by holding
PVS drivers to a standard of 40 moves per workday for each driver according to
established productivity standards. We also determined that, although all four of the
Tier 1 NDC facilities were efficiently unloading inbound mail from trailers as they arrived
at the facility yard, they did not always effectively load the trailers for direct movement
from the facility yard. We assessed workhours, workload, and costs associated with
making the operations more efficient and estimated that the facilities could reduce PVS
driver workhours by 37,740, with a cost of $1,632,752 in transportation savings
annually. The findings are summarized in Table 5.

                   Table 5. Summary of Results of Tier 1 NDC Yard Moves



               NDCs Visited in             Spotter Productivity              Number of Spotter
                Prior Audits                      Finding                    Drivers at Facility
                                          Reduction of 6,984                         13
                                          workhours totaled
             Atlanta
                                          $277,642 in savings
                                          annually.
                                          Reduction of 6,984                             15
                                          workhours totaled
             St. Louis
                                          $298,974 in savings
                                          annually.
                                          Reduction of 3,492                             12
                                          workhours totaled
             Washington, DC
                                          $271,075 in savings
                                          annually.
                                          Reduction of 20,280 13                        58 14
                                          workhours totaled
             Springfield
                                          $785,061 in savings
                                          annually.
            Source: OIG analysis.




13
  Includes 11,657 hours of Postal Service-initiated changes to routes during the performance of our audit.
14
  The Springfield NDC not only has dedicated spotters conducting spotter activity, but it also uses PVS drivers to
conduct moves during their regular schedule, as well as other duties.
                                                         13
Nationwide Analysis of Tier 1 Network Distribution                                                     NO-AR-13-008
 Centers – Postal Vehicle Service Operations


                                     Appendix C: Monetary Impacts

Based on the results achieved at the four facilities, the monetary savings were totaled
and projected over the 11 Tier 1 NDC sites. We then subtracted the results from the
four sites already reviewed and averaged the savings for a 1-year period to account for
the savings in this report. We determined that management could phase out 27,643
workhours by following established productivity standards, saving the Postal Service
$1,498,530 annually ($2,997,060 over 2 years).


             Recommendation                        Impact Category                          Amount
                   1                            Funds Put to Better Use 15                 $2,997,060

The standard OIG practice for calculations of this type employs a 10-year cash flow
methodology, discounted to present value by applying factors published by Postal
Service Headquarters Finance. To be conservative in our cost savings estimate, we
have projected savings over 2 years because of the Postal Service's current financial
condition and its plans to restructure operations. This estimate was calculated by our
experts using a conservative statistical sample. The savings are what we would have
expected to find at the other seven sites had we reviewed their operations.




15
     Impact Category: funds that could be used more efficiently by implementing recommended actions.
                                                           14
Nationwide Analysis of Tier 1 Network Distribution              NO-AR-13-008
 Centers – Postal Vehicle Service Operations


                            Appendix D: Management's Comments




                                                     15
Nationwide Analysis of Tier 1 Network Distribution        NO-AR-13-008
 Centers – Postal Vehicle Service Operations




                                                     16
Nationwide Analysis of Tier 1 Network Distribution        NO-AR-13-008
 Centers – Postal Vehicle Service Operations




                                                     17
